No. 21-111

 

In THE
Supreme Court of the Anited States

NC FINANCIAL SOLUTIONS OF UTAH, LLC,

Petitioner,
v.

COMMONWEALTH OF VIRGINIA EX REL.
Mark R. HERRING, ATTORNEY GENERAL,

Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of Virginia

BRIEF OF AMICUS CURIAE
PROFESSOR GEORGE A. BERMANN
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

4,934 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 20, 2021.

 

Wilson-Epes Printing Co., Inc.
